GERHARDSTEIN & BRANCH

ALEGAL PROFESSIONAL ASSOCIATION

Carew TOWER
441 VINE STREET, Sule 3400
Cincinnati, Onto 45202

TELEPHONE: (513) 621-9100
FacsiMite: (513) 345-5543

*ALPHONSE A. GERHARDSTEIN “Also admitted fi
Jennarer L. BraNcu Minnesota

M. Carotine Hyatt

Rewecca P, SaLiey

Of Counsel
Rosert F. LAUFMAN

January 3, 2020
Via Electronic Filing and Hand Delivery

Honorable Scott 8. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Dave Yost, et al. v. Planned Parenthood Southwest Ohio Region, et al., No. 19-677

Dear Mr. Harris:

Jam counsel of record for Respondents in the above-captioned case. The petition for a
writ of certiorari in this case was filed on November 22, 2019 and placed on the docket on
November 26, 2019. I requested an extension of the Brief in Opposition, which the Court
granted, making the Brief currently due January 27, 2020.

Pursuant to Rule 30.4, on behalf of all Respondents, I respectfully request an additional
30-day extension. If the requested extension is granted, Respondents’ response would be due on
Wednesday, February 26, 2020. This extension is requested due to the press of other matters,
including preparing for two jury trials in February and March. Counsel for Petitioners do not
object to this request.

Thank you for your consideration of this matter.
Respectfully, Lh pmol
, je ta
Counsel for Respondents

ce: Benjamin M. Flowers (via U.S. mail and email)
Stephen P. Carney (via U.S. mail and email)

 

 
The Honorable Scott S. Harris
No. 19-677

January 3, 2020

Page 2 of 2

Roger E. Friedmann (via U.S. mail and email)
Michael G, Florez (via U.S. mail and email)

 
